App. 1
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
INTERIOR GLASS SYSTEMS, INC.,
Plaintiff-Appellant,
V.

No. 17-15713
D.C. No.
5:13-cv-05563-EJD

UNITED STATES OF AMERICA,

OPINION

Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of California
Edward J. Davila, District Judge, Presiding
Argued and Submitted September 13, 2018
San Francisco, California
Filed June 26, 2019
Before: A. Wallace Tashima, Johnnie B. Rawlinson,
and Paul J. Watford, Circuit Judges.
Opinion by Judge Watford
COUNSEL
John P. McDonnell (argued), Law Offices of John P.
McDonnell, Los Altos, California, for Plaintiff-Appellant.
Teresa E. McLaughlin (argued) and Geoffrey J. Klimas,
Attorneys; David A. Hubbert, Acting Assistant Attorney General; Thomas Moore, Assistant United States
Attorney; Brian Stretch, United States Attorney; Tax

App. 2
Division, United States Department of Justice, Washington, D.C.; for Defendant-Appellee.
OPINION
WATFORD, Circuit Judge:
The Internal Revenue Service (IRS) requires taxpayers to disclose their participation in certain transactions, known as “listed transactions,” that the agency
has designated for close scrutiny. 26 C.F.R. § 1.60114(a), (b)(2); see 26 U.S.C. § 6011(a). To compel compliance with this obligation, Congress has authorized
the IRS to impose monetary penalties on those who
fail to file the required disclosure statement. 26 U.S.C.
§ 6707A(a). The IRS determined that the taxpayer in
this case, Interior Glass Systems, Inc., failed to disclose
its participation in a listed transaction in three different tax years and imposed a penalty of $ 10,000 per
year. Interior Glass paid the penalties and then challenged their imposition by seeking an administrative
refund. When that challenge failed, the company filed
this action in the district court to recover the money it
had been forced to pay. See 28 U.S.C. § 1346(a)(1); 26
U.S.C. § 7422(a). The district court granted the government’s motion for summary judgment, concluding that
the penalties were properly imposed.
On appeal, Interior Glass raises two principal arguments. First, it contends that the penalties were
wrongly imposed because it did not actually participate in a listed transaction and thus had nothing to
disclose. Second, Interior Glass contends that its due

App. 3
process rights were violated because it was not afforded an opportunity for pre-collection judicial review.
We find neither contention meritorious and accordingly affirm.
I
Treasury Regulation § 1.6011-4, which imposes the
disclosure obligation, defines the term “listed transaction” as follows: “A listed transaction is a transaction
that is the same as or substantially similar to one of
the types of transactions that the Internal Revenue
Service (IRS) has determined to be a tax avoidance
transaction and identified by notice, regulation, or
other form of published guidance as a listed transaction.” 26 C.F.R. § 1.6011-4(b)(2); see also 26 U.S.C.
§ 6707A(c)(2) (providing similar definition of the term).
As the regulation states, one of the ways the IRS identifies listed transactions is by issuing published notices.
In 2007, the IRS issued Notice 2007-83, titled
“Abusive Trust Arrangements Utilizing Cash Value
Life Insurance Policies Purportedly to Provide Welfare
Benefits.” 2007-2 C.B. 960, 960. The Notice designates
certain transactions involving cash-value life insurance policies as listed transactions because, in the
agency’s view, they improperly allow small business
owners to receive cash and other property from the
business “on a tax-favored basis.” Id. The transaction
takes place in two steps: A small or closely held business transfers funds to a trust; that trust then pays the

App. 4
premium on the business owner’s cash-value life insurance policy. Cash-value policies function differently from “term” life insurance, which guarantees
coverage for a specified period of time. Under a term
policy, the insurer pays out the so-called death benefit
only if the policyholder dies during the coverage period. In contrast, with a cash-value policy, a portion of
the premium goes into an investment account. The
policyholder controls how the funds are invested, and
when the plan terminates, the policyholder can withdraw the cash value that has accumulated within the
policy, called the surrender value. Id.
The IRS required disclosure of these transactions
given their potential for use in tax-avoidance schemes.
In the typical arrangement, the business deducts its
contributions to the trust, thereby reducing its taxable
income. But the business owner does not include the
payments as part of his own taxable income; at most,
he reports “significantly less than the premiums paid
on the cash value life insurance policies.” Id. In effect,
the business owner shifts the pre-tax earnings of the
business into his own personal investment vehicle.
Even when a death benefit is provided—such that
there is a component of term life insurance grafted
onto the transaction—“the arrangements often require
large employer contributions relative to the actual cost
of the benefits currently provided under the plan.” Id.
Thus, the IRS explained, the transfers to the trust
could be, in substance, distributions of dividend income
or deferrals of compensation. Id. at 960–61. Upon disclosure of the transaction, the IRS could challenge the

App. 5
deductions by the business and seek to include the payments made to the trust in the business owner’s gross
income.
Notice 2007-83 states that the listed transaction
described above consists of four elements. Simplified
somewhat, and as relevant for our purposes, the four
elements are:
•

the transaction involved “a trust or other
fund described in [26 U.S.C.] § 419(e)(3)
that is purportedly a welfare benefit
fund”;

•

contributions to the trust or other fund
were not governed by the terms of a collective bargaining agreement;

•

the trust or other fund paid premiums on
one or more cash-value life insurance policies that accumulated value; and

•

the employer took a deduction that exceeded the sum of certain amounts.

Id. at 961–62.
The Notice also identifies as a listed transaction
“any transaction that is substantially similar” to a
transaction with the four specified elements. Id. at 961.
Although the term “substantially similar” appears in
the penalty-imposing statute, 26 U.S.C. § 6707A, the
statute does not define the term. The IRS has defined
it in Treasury Regulation § 1.6011-4. (Interior Glass
does not challenge the validity of the regulation here.)
That definition states in relevant part:

App. 6
The term substantially similar includes any
transaction that is expected to obtain the
same or similar types of tax consequences and
that is either factually similar or based on the
same or similar tax strategy. . . . [T]he term
substantially similar must be broadly construed in favor of disclosure. For example, a
transaction may be substantially similar to a
listed transaction even though it involves different entities or uses different Internal Revenue Code provisions.
26 C.F.R. § 1.6011-4(c)(4). The regulation includes two
examples by way of illustration. In the first, the taxpayer inflates the basis in a partnership interest in a
different manner from the listed transaction; in the
second, the taxpayer employs an intermediary of a different type from that used in the listed transaction to
prevent recognition of a gain. § 1.6011-4(c)(4), Examples 1 & 2. Both transactions remain substantially
similar despite the change in form. As is often the case
elsewhere in tax law, the disclosure obligation does not
“exalt artifice above reality,” which would “deprive the
statutory provision in question of all serious purpose.”
Gregory v. Helvering, 293 U.S. 465, 470 (1935).
The IRS concluded that Interior Glass participated in a transaction substantially similar to the
listed transaction identified in Notice 2007-83 during
the 2009, 2010, and 2011 tax years. Specifically, Interior Glass joined the Group Term Life Insurance Plan
(GTLP) to fund a cash-value life insurance policy
owned by its sole shareholder and only employee,
Michael Yates. All agree that this transaction satisfies

App. 7
three of the Notice’s four elements. The GTLP transaction lacks the first element because its intermediary
was a tax-exempt business league, rather than a trust
or § 419(e)(3) welfare benefit fund. The business
league, however, performed the same functions as the
trust or welfare benefit fund described in the Notice.
We agree with the district court that Interior
Glass was required to disclose its participation in the
GTLP transaction. Under the definition contained in
the applicable Treasury Regulation, the GTLP transaction is substantially similar to the listed transaction
identified in Notice 2007-83.
First, the GTLP transaction was “expected to obtain the same or similar types of tax consequences.”
26 C.F.R. § 1.6011-4(c)(4). The transaction identified in
the Notice seeks to “provide cash and other property to
the owners of the business on a tax-favored basis.”
2007-2 C.B. at 960. Those favorable tax consequences
are achieved through (1) a deduction of the contributions by the business and (2) a failure by the business
owner to declare the payments as income. The GTLP
transaction promised similar tax benefits. On that
score, the plan documents represented that “[c]ontributions [were] currently deductible” by Interior Glass
and that only the cost of group-term life insurance (in
contrast to the premium on the cash-value policy) may
have been includible in Yates’ income.
Second, the GTLP transaction is both “factually
similar” to the listed transaction described in the Notice and “based on the same or similar tax strategy.” 26

App. 8
C.F.R. § 1.6011-4(c)(4). As to factual similarity, the
GTLP transaction involved a small business, a cashvalue life insurance policy that benefits the business
owner, and payment of the premiums on the policy
through an intermediary. The GTLP combined those
three aspects in pursuit of the same tax strategy discussed in the Notice. By using the intermediary, the
business and its owner attempted to do what they
could not do outright: deduct payments made to the
owner’s investment vehicle without declaring the benefits as income.
Interior Glass identifies two differences between
the GTLP transaction and the listed transaction in
Notice 2007-83, but neither difference is material.
First, as noted above, the GTLP transaction was filtered through a tax-exempt business league instead of
a trust or welfare benefit fund. Second, rather than invoking 26 U.S.C. § 419’s rules for welfare benefits, the
GTLP transaction purported to provide § 79 groupterm life insurance benefits, even though it also involved a cash-value life insurance policy. But the IRS’s
definition of “substantially similar” explicitly states
that neither of these differences is sufficient to prevent
a transaction from qualifying as a listed transaction:
“[A] transaction may be substantially similar to a
listed transaction even though it involves different
entities or uses different Internal Revenue Code provisions.” 26 C.F.R. § 1.6011-4(c)(4). Just as in the examples accompanying the regulation, Interior Glass
cannot evade a finding of substantial similarity solely

App. 9
by claiming a deduction on a different basis or by using
a different intermediary to complete the transaction.
Interior Glass contends that, if read to encompass
the GTLP transaction, the definition of “substantially
similar” is unconstitutionally vague. That contention
is without merit. For a civil penalty like 26 U.S.C.
§ 6707A, the definition is constitutionally valid so long
as “a person of ordinary intelligence” could determine
which transactions are substantially similar to the
listed transaction identified in Notice 2007-83. Fang
Lin Ai v. United States, 809 F.3d 503, 514 (9th Cir.
2015). As explained above, the regulation’s definition
of “substantially similar” is detailed enough to make
that determination an easy one in this case. The only
differences between the GTLP transaction and the
listed transaction are expressly addressed—and expressly rejected as immaterial—in the definition itself.
II
We also find no merit in Interior Glass’ contention
that its procedural due process rights were violated.
To obtain judicial review of the penalties imposed
by the IRS, Interior Glass first had to pay the penalties
in full. See 28 U.S.C. § 1346(a)(1); Flora v. United
States, 362 U.S. 145, 177 (1960). Interior Glass argues that, under the Due Process Clause of the Fifth
Amendment, it should have been afforded an opportunity to obtain judicial review before having to part
with its money. Neither the Supreme Court’s nor our
court’s precedent supports that proposition.

App. 10
As a general rule, the government may require a
taxpayer who disputes his tax liability to pay upfront
before seeking judicial review. Being compelled to part
with one’s money constitutes a deprivation of property,
but the government’s vital interest in securing tax revenues justifies a pay-first, litigate-later scheme of judicial review. Phillips v. Commissioner, 283 U.S. 589, 595,
597–98 (1931); Franceschi v. Yee, 887 F.3d 927, 936 (9th
Cir. 2018). Under that rule, Interior Glass’ ability to
obtain post-collection judicial review would suffice,
without more, to satisfy due process.
In Jolly v. United States, 764 F.2d 642 (9th Cir. 1985),
however, we applied the three-factor framework from
Mathews v. Eldridge, 424 U.S. 319 (1976), when deciding whether a taxpayer was entitled to pre-collection
judicial review of a tax penalty. Applying that framework here, we conclude that Interior Glass was not
entitled to pre-collection judicial review. See Larson v.
United States, 888 F.3d 578, 585–87 (2d Cir. 2018) (upholding full-payment rule for related tax penalty).
The first factor is “the private interest that will be
affected by the official action.” Mathews, 424 U.S. at
335. Interior Glass’ interest in the lost use of its property for the pendency of the refund action is “noteworthy, but not that substantial.” Jolly, 764 F.2d at 645.
After all, post-deprivation proceedings will provide
“full retroactive relief ” if the taxpayer prevails on its
refund suit. Mathews, 424 U.S. at 340. Interior Glass
would no doubt prefer to retain its money while litigating the validity of the penalties, but this is not a case

App. 11
in which an individual faces abject poverty in the interim. See Goldberg v. Kelly, 397 U.S. 254, 264 (1970).
The second factor is “the risk of an erroneous deprivation” of the private interest. Mathews, 424 U.S. at
335. The IRS’s listed-transaction determination turns
on a side-by-side comparison of the listed transaction
identified in an IRS notice or regulation and the transaction at issue. The decision to impose a penalty under
26 U.S.C. § 6707A “does not require any determinations of credibility of witnesses or claims, and would
not be aided in most cases by a face-to-face meeting
with the taxpayer before a penalty is assessed.” Jolly,
764 F.2d at 646. The IRS is therefore unlikely to err in
“the generality of cases,” which is the proper focus for
our analysis. Mathews, 424 U.S. at 344.
The risk of an erroneous deprivation is further
mitigated by the availability of pre-collection review of
the taxpayer’s liability in an administrative forum. See
Larson, 888 F.3d at 586. Taxpayers have two (likely
mutually exclusive) routes to obtain review in the IRS
Office of Appeals: an appeals conference or a collectiondue-process hearing. 26 U.S.C. § 6330(c)(2)(B); 26
C.F.R. § 601.103(c)(1); see Lewis v. Commissioner, 128
T.C. 48, 59–60 (2007). If the taxpayer files a timely
protest, an appeals officer will review the taxpayer’s
arguments and determine whether the taxpayer engaged in a listed transaction. See, e.g., Our Country
Home Enterprises, Inc. v. Commissioner, 855 F.3d 773,
781 (7th Cir. 2017). Although the IRS Office of Appeals may not rescind a listed-transaction penalty, see
26 U.S.C. § 6707A(d)(1)(A), that simply precludes the

App. 12
Office from exercising prosecutorial discretion in deciding whether the penalty should stand. See 26 C.F.R.
§ 301.6707A-1(d)(3)–(5). The Office can still determine
whether the penalty was erroneously imposed in the
first place and, if so, revoke the penalty altogether. See
§ 601.106(f )(1).
Finally, the third factor, which measures the government’s interest in retaining the full-payment prerequisite to this refund action, also weighs in the IRS’s
favor. See Mathews, 424 U.S. at 335. Even with the disclosure obligation on the books, “the IRS often did not
learn of the existence of tax shelters until after it conducted audits.” Smith v. Commissioner, 133 T.C. 424,
427 (2009). Congress added the § 6707A penalty provision in 2004 to encourage voluntary disclosure of listed
transactions. This important objective “could be jeopardized if full-scale pre-deprivation hearings and court
cases are required whenever the government attempts
to collect” the authorized penalties. Jolly, 764 F.2d at
646; see Larson, 888 F.3d at 586–87.
In sum, the combination of pre-collection administrative review plus post-collection judicial review satisfies the requirements of the Due Process Clause.
Interior Glass received all the process it was due in
this context.
AFFIRMED.

App. 13
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
INTERIOR GLASS
SYSTEMS, INC.,
Plaintiff,
v.
UNITED STATES
OF AMERICA,
Defendant.

Case No.
5:13-cv-05563-EJD
ORDER:
GRANTING DEFENDANT’S
FIRST MOTION FOR
PARTIAL SUMMARY
JUDGMENT;
GRANTING IN PART
AND DENYING IN PART
PLAINTIFF’S MOTION
FOR SUMMARY JUDGMENT; AND
GRANTING IN PART
AND DENYING IN PART
DEFENDANT’S SECOND
MOTION FOR SUMMARY
JUDGMENT
Re: Dkt. Nos. 30, 31, 36
(Filed Aug. 12, 2016)

Plaintiff Interior Glass Systems, Inc. (“Interior
Glass”) filed the instant action against the United
States of America (the “Government”) seeking the recovery of federal income tax penalties assessed and
collected under 26 U.S.C. § 6707A. Presently before
the court are three matters: two motions for partial

App. 14
summary judgment filed by the Government, and one
motion for summary judgment filed by Interior Glass.
Dkt. Nos. 30, 31, 36.
Federal jurisdiction arises pursuant to 28 U.S.C.
§ 1346(a)(1). Having carefully considered the parties’
pleadings, supplemental briefing, and the oral argument presented at the two hearings addressing these
matters, the court grant [sic] the Government’s first
Motion for Partial for Summary Judgment, and will
grant in part and deny in part the parties’ other motions for the reasons explained below.
I.

FACTUAL
GROUND

AND

PROCEDURAL

BACK-

Interior Glass is a glass-installation company located in San Jose, California, and is owned by Mike
Yates. In 2012, the Internal Revenue Service (“IRS”)
imposed a $40,000 penalty on Interior Glass for failing
to disclose its participation in a “listed transaction” as
described in IRS Notice 2007-83. The facts underlying
the penalty are as follows:
In 2005, certain insurance brokers began to market a plan they claimed allowed an employer to claim
deductions for life insurance premiums paid on behalf
of an employee, while the employee would not have to
report any compensation income for the premiums
paid on his behalf. One such insurance broker was
Lawrence Cronin, who marketed the plan as the Insured Security Program (“ISP”). In 2006, Interior

App. 15
Glass learned of the ISP and began participating in the
plan.
In October 2007, the IRS targeted programs similar to the ISP and identified them as “abusive trust
arrangements.” To regulate such arrangements, the
IRS issued Notice 2007-83 providing that abusive
trust arrangements are transactions identified as
“listed transactions” under the Internal Revenue Code.
Notice 2007-83 requires taxpayers participating in a
“listed transaction” to disclose their participation in
such transaction to the IRS. A failure to disclose subjects the taxpayer to federal income tax penalties under § 6707A.
In light of Notice 2007-83, Cronin recognized the
ISP plan would be considered a “listed transaction”
subject to the disclosure requirement of the Notice.
Thus, in 2009, Cronin developed a program that he believed would not be subjected to the disclosure requirement. He founded a tax-exempt business league called
the Association for Small, Closely-Held Business Enterprises (“ASBE”), which would offer a group term
life insurance plan (“GTLP”) to its member-companies/
employers. The ASBE attracted 139 member-companies/
employers, including Interior Glass, who joined the
ASBE in August 2009 and adopted the GTLP. The
participating companies were told the GTLP was
not a “listed transaction,” and as such, was not subject
to Notice 2007-83. Consequently, Interior Glass did not
disclose its participation in the GTLP for the 2009,
2010, and 2011 tax years.

App. 16
In March 2011, the IRS interviewed Cronin about
the GTLP, obtained documents about the GTLP, and
obtained the names of the companies that had joined
the ASBE and adopted the GTLP. Cronin explained to
the IRS that the GTLP was a different program than
the ISP, and was therefore not subject to Notice 200783. In October 2011, the IRS initiated an audit of Interior Glass.
In November 2012, the IRS sent Interior Glass a
letter stating that it was imposing penalties under
§ 6707A because Interior Glass failed to disclose its
participation in the GTLP, which it determined was a
“listed transaction” subject to the disclosure requirement of Notice 2007-83. Along with the letter, the IRS
sent “Form 886A – Explanation of Items” describing
the basis for the penalties. The IRS imposed a $10,000
penalty for each tax year Interior Glass failed to disclose its participation in the GTLP, from 2009 to 2011.
In addition, the IRS imposed a $10,000 penalty for Interior Glass’ failure to disclose its participation in the
ISP in 2008. The penalties amounted to $40,000. In
May 2013, Interior Glass paid $40,430.12 in assessed
penalties and interest.
In June 2013, Interior Glass filed a claim for refund with the IRS, which the IRS denied. Interior
Glass then commenced the instant action in December
2013 seeking recovery of the $40,430.12 it paid in penalties and interest. These motions followed.1
1

After the motions were filed, the Government withdrew its
opposition to Interior Glass’ request for a refund of the $10,000 it

App. 17
II.

LEGAL STANDARD

A motion for summary judgment or partial summary judgment should be granted if “there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a); Addisu v. Fred Meyer, Inc., 198 F.3d 1130, 1134
(9th Cir. 2000).
The moving party bears the initial burden of informing the court of the basis for the motion and identifying the portions of the pleadings, depositions,
answers to interrogatories, admissions, or affidavits
that demonstrate the absence of a triable issue of material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323
(1986). If the issue is one on which the nonmoving
party must bear the burden of proof at trial, the moving party need only point out an absence of evidence
supporting the claim; it does not need to disprove its
opponent’s claim. Id. at 325.
If the moving party meets the initial burden, the
burden then shifts to the non-moving party to go beyond the pleadings and designate specific materials in
the record to show that there is a genuinely disputed
fact. Fed. R. Civ. P. 56(c); Celotex Corp., 477 U.S. at 324.
A “genuine issue” for trial exists if the non-moving
party presents evidence from which a reasonable jury,
paid as a penalty for the 2008 tax year. Dkt. No. 63. Based on the
concession, Interior Glass is entitled to a judgment in its favor for
that amount, and only the penalties assessed for the 2009, 2010,
and 2011 tax years remain in dispute for the purposes of this order.

App. 18
viewing the evidence in the light most favorable to that
party, could resolve the material issue in his or her
favor. Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248-49 (1986).
The court must draw all reasonable inferences in
favor of the party against whom summary judgment
is sought. Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 587 (1986). However, the mere
suggestion that facts are in controversy, as well as
conclusory or speculative testimony in affidavits and
moving papers, is not sufficient to defeat summary
judgment. Id. (“When the moving party has carried its
burden under Rule 56(c), its opponent must do more
than simply show that there is some metaphysical
doubt as to the material facts.”); Thornhill Publ’g Co.
v. GTE Corp., 594 F.2d 730, 738 (9th Cir. 1979). Instead, the non-moving party must come forward with
admissible evidence to satisfy the burden. Fed. R. Civ.
P. 56(c).
“If the nonmoving party fails to produce enough
evidence to create a genuine issue of material fact, the
moving party wins the motion for summary judgment.”
Nissan Fire & Marine Ins. Co. v. Fritz Cos., Inc., 210
F.3d 1099, 1103 (9th Cir. 2000). “But if the nonmoving
party produces enough evidence to create a genuine issue of material fact, the nonmoving party defeats the
motion.” Id.

App. 19
III. DISCUSSION
A. Overview of IRS Notice 2007-83
A brief overview of Notice 2007-83 is warranted as
a precursor to an analysis of the parties’ arguments.
Notice 2007-83, entitled “Abusive Trust Arrangements
Utilizing Cash Value Life Insurance Policies Purportedly to Provide Welfare Benefits,” was released on October 17, 2007. The Notice states that the IRS and
Treasury Department “are aware of certain trust arrangements claiming to be welfare benefit funds and
involving cash value life insurance policies that are being promoted to and used by taxpayers to improperly
claim federal income and employment tax benefits.”
The Notice then goes on to state in the background section:
Trust arrangements utilizing cash value life
insurance policies and purporting to provide
welfare benefits to active employees are being
promoted to small businesses and other
closely held businesses as a way to provide
cash and other property to the owners of the
business on a tax-favored basis. The arrangements are sometimes referred to by persons
advocating their use as “single employer
plans” and sometimes as “419(e) plans.” Those
advocates claim that the employers’ contributions to the trust are deductible under §§ 419
and 419A as qualified cost, but that there is
not a corresponding inclusion in the owner’s
income.
....

App. 20
Under these arrangements, the trustee uses
the employer’s contributions to the trust to
purchase life insurance policies. The trustee
typically purchases cash value life insurance
policies on the lives of the employees who are
owners of the business (and sometimes other
key employees), while purchasing term life insurance policies on the lives of the other employees covered under the plan.
It is anticipated that after a number of years
the plan will be terminated and the cash
value life insurance policies, cash, or other
property held by the trust will be distributed
to the employees who are plan participants at
the time of the termination. While a small
amount may be distributed to employees who
are not owners of the business, the timing of
the plan termination and the methods used to
allocate the remaining assets are structured
so that the business owners and other key employees will receive, directly or indirectly, all
or a substantial portion of the assets held by
the trust.
Those advocating the use of these plans often
claim that the employer is allowed a deduction under § 419 (c) (3) for its contributions
when the trustee uses those contributions to
pay premiums on the cash value life insurance policies, while at the same time claiming
that nothing is includible in the owner’s gross
income as a result of the contributions (or, if
amounts are includible, they are significantly
less than the premiums paid on the cash value
life insurance policies). They may also claim

App. 21
that nothing is includible in the income of the
business owner or other key employee as a result of the transfer of a cash value life insurance policy from the trust to the employee,
asserting that the employee has purchased
the policy when, in fact, any amounts the
owner or other key employee paid for the policy may be significantly less than the fair market value of the policy. Some of the plans are
structured so that the owner or other key employee is the named owner of the life insurance policy from the plan’s inception, with the
employee assigning all or a portion of the
death proceeds to the trust. Advocates of these
arrangements may claim that no income inclusion is required because there is no transfer of the policy itself from the trust to the
employees.
The Notice also “informs taxpayers and their representatives that the tax benefits claimed for these
arrangements are not allowable for federal tax purposes,” and “further alerts persons involved with these
transactions of certain responsibilities that may arise
from their involvement with these transactions.”
Importantly, Notice 2007-83 applies to “listed
transactions,” which are defined as:
Any transaction that has all of the following
elements, and any transaction that is substantially similar to such a transaction, are
identified as “listed transactions” for purposes
of [26 C.F.R.] § 1.6011-4 (b)(2) and [26 U.S.C.]
§§ 6111 and 6112, effective October 17, 2007,
the date this notice is released to the public.

App. 22
(1) The transaction involves a trust or other
fund described in § 419(e)(3) that is purportedly a welfare benefit fund.
(2) For determining the portion of its contributions to the trust or other fund that are currently deductible the employer does not rely
on the exception in § 419A(f )(5)(A) (regarding
collectively bargained plans).
(3) The trust or other fund pays premiums
(or amounts that are purported to be premiums) on one or more life insurance policies
and, with respect to at least one of the policies,
value is accumulated:
...
(4) The employer has taken a deduction for
any taxable year for its contributions to the
fund with respect to benefits provided under
the plan (other than post-retirement medical
benefits, post-retirement life insurance benefits, and child care facilities) that is greater
than the sum of the following amounts:
The Notice requires taxpayers to disclose their
participation in a “listed transaction” to the IRS. Those
who fail to do so may be subject to a penalty under
§ 6707A. The minimum penalty is $10,000.
B. The Constitutional and Related Arguments
The court now addresses the issues raised in the
Government’s first Motion for Partial Summary

App. 23
Judgment, as well as related issues raised by Interior
Glass in its Motion for Summary Judgment. Dkt. Nos.
30, 31.
In its motion, the Government moves for summary
judgment on three of Interior Glass’ legal arguments:
(1) that penalties imposed under § 6707A violate a
taxpayer’s right to due process, and constitute an unconstitutional taking, (2) that § 6707A is unconstitutionally vague, and therefore void, and (3) that § 6707A
penalties cannot be imposed if the taxpayer did not
know he or she was participating in a reportable transaction, or relied on competent advice in failing to disclose the participation. Each of these topics is
discussed below.
i. Whether a § 6707A Penalty Violates
Due Process and Constitutes a Taking
The Government contends that a penalty imposed
under § 6707A does not violate the due process clause
of the Fifth Amendment because it is an assessable
penalty that is payable upon notice and demand from
the Secretary of the Treasury, collected in the same
manner as taxes, and is not subject to deficiency procedures. Penalized taxpayers also have the right to judicial review, as evidenced by this lawsuit. Furthermore,
the Government argues that a § 6707A penalty is not
an unconstitutional taking because Congress has been
designated the power to “lay and collect taxes.” U.S.
Const, art. I, § 8, cl. 1.

App. 24
In response, Interior Glass argues that, while
there are limited instances of the Government’s “necessity” to collect taxes, there is no such necessity for
the imposition of penalties. Specific to § 6707A, Interior Glass points out that the section provides the IRS
with a “more convenient” method to collect the penalty
“than the notice and hearing procedure in [26 U.S.C.]
§ 6212.”
Generally, “[t]he base requirement of the Due Process Clause is that a person deprived of property be
given an opportunity to be heard at a meaningful time
and in a meaningful manner.” Buckingham v. Sec’v of
U.S. Dep’t of Agr., 603 F.3d 1073, 1082 (9th Cir. 2010)
(internal quotations omitted). However, it is not required “that the notice and opportunity to be heard occur before the deprivation,” and “due process does not
always require an adversarial hearing, a full evidentiary hearing, or a formal hearing.” Id. (internal quotations and citations omitted).
In the context of tax assessments and penalties,
“[t]he right of the United States to collect its internal
revenue by summary administrative proceedings has
long been settled.” Phillips v. Comm’r, 283 U.S. 589, 595
(1931); Todd v. United States, 849 F.2d 365, 369 (9th
Cir. 1988) (“Well-settled is the rule that the United
States government’s revenue requirements justify use
of summary procedures in collection of taxes.”). To that
end, “the Supreme Court has consistently held that
post-deprivation hearings satisfy the demands of due
process, when revenue collection is at issue.” Todd, 849
F.2d at 369; Oropallo v. United States, 994 F.2d 25, 31

App. 25
(1st Cir. 1993) (“[I]t is well settled that post-collection
judicial review accords a taxpayer all the process that
is due under our tax laws.”). “Accordingly, taxpayers
do not have the right to a hearing prior to collection
efforts by the IRS.” Id.
Here, Interior Glass alleges the IRS notified it in
November, 2012, that it would be assessed penalties
under § 6707A. Interior Glass also alleges – and the
Government does not dispute – that it paid the penalties and interest and filed a claim for refund on June
26, 2013. As the above authority demonstrates, the
IRS was not required to provide Interior Glass with a
pre-assessment hearing, and the simple fact this court
is now reviewing the § 6707A penalty subject to Interior Glass’ appellate rights forecloses any argument
based on a deprivation of due process. See Oropallo,
994 F.2d at 31 (“Both this court and the district court
have reviewed the IRS’s denial of Oropallo’s refund
claim and have issued opinions explaining that his
claim is barred because it was untimely. Thus, Oropallo
has received the post-collection judicial review to
which he was entitled.”).
As such, the Government is entitled to summary
judgment as a matter of law, and its motion will
granted [sic] with respect to the argument that imposition of the § 6707A penalty violated Interior Glass’
due process rights or amounted to an unconstitutional
taking in violation of the Fifth Amendment.

App. 26
ii. Whether § 6707A is Void for Vagueness
The parties dispute whether § 6707A is unconstitutionally vague. “The Fifth Amendment’s Due Process
Clause requires that a penal statute define the criminal offense with sufficient definiteness that ordinary
people can understand what conduct is prohibited and
in a manner that does not encourage arbitrary and
discriminatory enforcement.” Dimaya v. Lynch, 803
F.3d 1110, 1112 (9th Cir. 2015) (internal quotations
omitted). “Although most often invoked in the context
of criminal statutes, the prohibition on vagueness also
applies to civil statutes[.]” Id.; see Vill. of Hoffman
Estates v. Flipside, Hoffman Estates, Inc., 455 U.S. 489,
497-99 (1982) (explaining that while the void for
vagueness doctrine applies to civil statutes, the Supreme Court has “expressed greater tolerance of enactments with civil rather than criminal penalties
because the consequences of imprecision are qualitatively less severe”).
In its motion and in opposition to the first motion
filed by the Government, Interior Glass argues that
§ 6707A is void for vagueness because no reasonable
person, including the IRS, could know what “substantially similar” means. It argues that the statute’s
vagueness allows the IRS to determine that different
policy plans are “substantially similar,” therefore facilitating the imposition of penalties. For its part, the
Government argues that § 6707A is not unconstitutionally vague since Notice 2007-83 describes a “listed
transaction” in detail, and explicitly provides for “substantially similar” transactions, thereby incorporating

App. 27
the definition for that phrase found in 26 C.F.R.
§ 1.6011-4(c)(4).
As their arguments demonstrate, the parties’
vagueness dispute is focused on the phrase “substantially similar,” as incorporated into § 6707A, and
whether such phrase is “ ‘so vague and indefinite as really to be no rule or standard at all,’ or ‘whether a person of ordinary intelligence could understand’ ” what
types of arrangements are “substantially similar” to a
“listed transaction.” Ai v. United States, 809 F.3d 503,
514 (9th Cir. 2015) (quoting Boutilier v. INS, 387 U.S.
118, 123 (1967) and Ass’n des Eleveurs de Canards et
d’Oies du Quebec v. Harris, 729 F.3d 937, 946 (9th Cir.
2013)). In assessing § 6707A for vagueness, the court
is mindful that so long as “substantially similar” is “set
out in terms that the ordinary person exercising ordinary common sense can sufficiently understand and
comply with, without sacrifice to the public interest,”
that portion of § 6707A is not unconstitutionally
vague. U.S. Civil Serv. Commn’n v. Nat’l Ass’n of Letter
Carriers, AFL-CIO, 413 U.S. 548, 579 (1973).
Here, the phrase “substantially similar” appears
in § 6707A(c)(2), which section defines a “listed transaction” as “a reportable transaction which is the same
as, or substantially similar to, a transaction specifically identified by the Secretary as a tax avoidance
transaction for purposes of section 6011.” This portion
of the statute must therefore be read in conjunction
with Notice 2007-83, because it is there that the Secretary identified “certain trust arrangements claiming
to be welfare benefit funds and involving cash value

App. 28
life insurance policies” as “tax avoidance transactions”
and “listed transactions for purposes of § 1.6011-4
(b)(2) . . . and §§ 6111 and 6112.” As indicated above,
Notice 2007-83 defines a “listed transaction” with four
specific elements, and provides that “[a]ny transaction
that has all of the [ ] elements, and any transaction
that is substantially similar to such a transaction, are
identified as ‘listed transactions’. . . . ”
In turn, § 1.6011-4(b)(2) defines a “listed transaction” as “a transaction that is the same as or substantially similar to one of the types of transactions that
the [IRS] has determined to be a tax avoidance transaction and identified by notice, regulation, or other
form of published guidance as a listed transaction.”
“Substantially similar” is subsequently defined in
§ 1.6011-4(c)(4) as “any transaction that is expected to
obtain the same or similar types of tax consequences
and that is either factually similar or based on the
same or similar tax strategy,” and is illustrated with
examples.
Given this direction, the court cannot accept Interior Glass’ contention that use of the phrase “substantially similar” in § 6707A is “so vague and indefinite”
as to provide no standard at all, or that “a person of
ordinary intelligence” could not understand if he or she
participated in an arrangement “substantially similar”
to a “listed transaction.” See Ai, 809 F.3d at 514. As explained, Notice 2007-83 lists specific elements to which
an arrangement can be compared to determine
whether it is “substantially similar” to a “listed transaction.” For that reason, and contrary to Interior Glass’

App. 29
position, § 6707A does not “effectively require[ ] the
taxpayer [to] guess what arguments (and what revised
facts) the IRS might come up with in the future to allege that two different items are ‘substantially similar.’ ”
Interior Glass seems to take issue with the lack of
preciseness in the definition of “substantially similar”
because, in its words, “any low-level IRS employee can
decide items are ‘substantially similar’ and impose the
penalties.” Interior Glass also speculates the IRS itself
could not determine whether the GTLP was subject to
penalty given the delay between its receipt of information and the issuance of a penalty notice. The court
observes, however, that whether a statute is void for
vagueness does not turn on whether the IRS applies or
interprets § 6707A consistently, or how long it takes an
agency to render a penalty decision. See id. (“[T]he
question is not whether the government applied or interpreted FICA consistently.”). Moreover, a statute
need not define every factual scenario that falls within
its purview in order to withstand a vagueness challenge. See Boyce Motor Lines v. United States, 342 U.S.
337, 340 (1952). Indeed, there are good reasons for such
specificity to be absent here, given the creativity a taxpayer may employ in an effort to circumvent the statute.
In sum, Interior Glass’ arguments are misplaced
because the language of § 6707A is sufficiently [sic] to
satisfy the more tolerant standard applied to statutes
providing only for civil penalties. Vill. of Hoffman Estates, 455 U.S. at 498-99. The Government’s motion as

App. 30
to this issue will therefore be granted, and Interior
Glass’ motion will be denied.
iii. Whether Knowledge or Advice is
Relevant to a § 6707A Penalty
The Government argues in its motion that § 6707A
allows for a strict liability penalty, and contends that
whether Interior Glass’ failure to report was not willful
or knowing, or was based on the advice of tax professionals, is irrelevant. In response, Interior Glass argues that a strict liability penalty is unconstitutional
because it punishes taxpayers who are otherwise unaware of participation in a reportable transaction. As
a corollary argument, Interior Glass argues “[i]t has
long been recognized that even if the statute is silent,
a penal statute implies a requirement of mens rea.”
Initially, the court must agree with the Government that a § 6707A provides for a strict liability penalty. It notably states that “[a]ny person who fails to
include on any return or statement any information
with respect to a reportable transaction which is required . . . to be included with such return or statement
shall pay a penalty. . . . ” 26 U.S.C. § 6707A(a) (emphasis added). In addition, the definition of “substantially
similar” in § 1.6011-4 (c)(4) specifies that “[r]eceipt of
an opinion regarding the tax consequences of the
transaction is not relevant to the determination of
whether the transaction is the same as or substantially similar to another transaction.”

App. 31
However, the characterization does not mean the
court must find that § 6707A is constitutionally infirm,
because Interior Glass has not produced authority
which requires such a result. Interior Glass’ citation to
cases calling for the implication of some form of scienter into criminal statutes, such as United States v. XCitement Video, 513 U.S. 64 (1994) and United States
v. United States Gypsum Co., 438 U.S. 422 (1978), are
plainly distinguishable from the instant factual circumstances and unpersuasive on that basis. Similarly,
the footnoted statement from National Federation of
Independent Business v. Sebelius, 132 S. Ct. 2566,
2596 n. 9 (2012), and the intellectual debate over
whether a particular payment requirement constitutes
a tax or a penalty, is inapplicable here. Not only does
this case not implicate that issue, but there is no evidence the § 6707A penalty is the type of criminal fine
referenced in the statement cited by Interior Glass.
Based on this discussion, the court concurs with
the Government’s position that Interior Glass’ state of
mind or any advice it received are irrelevant to the imposition of a § 6707A penalty. Accordingly, the Government’s motion will be granted as to this issue.
C. The Penalty Assessed to Interior Glass
With the constitutional arguments decided, the
court examines the parties’ arguments concerning the
§ 6707A penalty assessed to Interior Glass. This issue
is addressed in the remaining portion of Interior Glass’
summary judgment motion and in the second Motion

App. 32
for Partial Summary Judgment filed by the Government. Dkt. Nos. 31, 36.
While Notice 2007-83 lists four elements to a
“listed transaction,” the parties only dispute the first
element. Thus, the primary question is whether the
GTLP involves a “trust or other fund described in
§ 419(e)(3) that is purportedly a welfare benefit fund.”
i. Whether the GTLP is a Trust
Notice 2007-83 does not provide a definition for a
“trust.” Black’s Law Dictionary defines a “trust” as
“[t]he right, enforceable solely in equity, to the beneficial enjoyment of property to which another person
holds the legal title; a property interest held by one
person (the trustee) at the request of another (the settlor) for the benefit of a third party (the beneficiary).”
TRUST, Black’s Law Dictionary (10th ed. 2014).
In its motion, Interior Glass argues the GTLP does
not involve a trust arrangement. Instead, Interior
Glass states that it joined an established business
league, ASBE, that was tax-exempt under § 501(c)(6)
of the Internal Revenue Code, and that through this
arrangement the ASBE controlled the insurance policies; no single member could control the money in the
ASBE. In response, the Government acknowledges the
GTLP involved a § 501(c)(6) association rather than a
trust. Given the parties seemingly consistent positions
on the issue, the court finds the GTLP does not constitute a trust for the purposes of Notice 2007-83.

App. 33
ii. Whether the GTLP is an Other Fund
Described in § 419(e)(3)
Since it is not a trust, the court turns to whether
the GTLP involves an “other fund described in
§ 419(e)(3) that is purportedly a welfare benefit fund.”
“The term ‘welfare benefit fund’ means any fund –
(A) which is part of a plan of an employer, and (B)
through which the employer provides welfare benefits to employees or their beneficiaries.” 26 U.S.C.
§ 419(e)(1). In addition:
The term “fund” means –
(A) any organization described in paragraph
(7), (9), (17) or (20) of section 501(c),
(B) any trust, corporation, or other organization not exempt from the tax imposed by this
chapter, and
(C) to the extent provided in regulations,
any account held for an employer by any person.
26 U.S.C. § 419(e)(3).
In its motion, Interior Glass argues that since the
ASBE is a § 501(c)(6) organization, it is not covered
by subsection (A) of § 419(e)(3). The Government
acknowledges this fact. In addition, Interior Glass and
the Government concur that the GTLP seeks tax deductions under § 79 of the Internal Revenue Code, not
§ 419. Accordingly, the court finds that the GTLP,
strictly speaking, does not involve the type of “other

App. 34
fund” described in § 419(e)(3) that is purportedly a
“welfare benefit fund.”
iii. Whether the GTLP is “Substantially
Similar” to a “Listed Transaction”
Given the GTLP is neither a trust nor an “other
fund,” the first element of what constitutes a “listed
transaction” is not directly satisfied. However, as suggested within the discussion of the parties’ constitutional arguments, the Government contends the GTLP
is nonetheless subject to Notice 2007-83 because it is
“substantially similar” to a “listed transaction.”
Again, an arrangement is “substantially similar”
to a “listed transaction” if it “is expected to obtain the
same or similar types of tax consequences and that is
either factually similar or based on the same or similar
tax strategy.” 26 C.F.R. § 1.6011-4(c)(4). The phrase
“must be broadly construed in favor of disclosure.” Id.
“[A] transaction may be substantially similar to a
listed transaction even though it involves different entities or uses different Internal Revenue Code provisions.” Id.
In its motion, the Government argues the GTLP is
a “listed transaction” because it is expected to obtain
the same tax consequences as such an arrangement. It
contends that the tax consequences of the GTLP were
the same as those of its predecessor, the ISP: under
both plans, Interior Glass deducted its contributions to
the arrangement while Yates received economic benefits (that is, the accumulated value of the life insurance

App. 35
policies, and the value of the current death benefit coverage), but he did not report the contributions as taxable income. The Government also argues the GTLP and
ISP are similar in the following ways: (1) the language
of both plans are similar, except that the term “Trust”
in the ISP plan document was replaced by the term
“Association” in the GTLP plan document; (2) both
plans had the same “plan administrator;” (3) like the
ISP, the GTLP purported to provide “welfare benefits,”
or group-term life insurance; and (4) the insurance policy employed by the GTLP was the same policy that
had been used by the ISP, a cash value life insurance
policy No. xxxxx619V. The Government therefore surmises that since the GTLP was expected to obtain the
same tax consequences as the scheme described in
Notice 2007-83, it is “substantially similar” to a “listed
transaction” such that it was subject to the disclosure
requirement of the Notice.
In response, Interior Glass argues the Government
has failed to show that the first element of a “listed
transaction” has been met. It argues that Notice 200783 involved a trust that was controlled by a single
employer, and that this type of control was critical to
finding that such transaction was an abusive trust arrangement. Interior Glass explains that in a singleemployer arrangement, the single employer has complete control of the trust and the life insurance policy;
as such, the single employer could obtain the economic
value of the policy that had been established, in part,
by the employer’s payment of the premium. According
to Interior Glass, the GTLP, in contrast, was an

App. 36
insurance plan offered by the business league composed of 139 members. Due to the existence of a multimember business league, no single member could
control the league or obtain any cash value of the life
insurance policies.
To support the contention that the GTLP is “substantially similar” because of its tax consequences, the
Government relies on certain facts that Interior Glass
does not convincingly dispute. First, Interior Glass admits that the ABSE used payments from Interior Glass
to pay premiums on a cash value life insurance policy
in 2009, 2010 and 2011. Dkt. No. 45, at ¶ 13. Second,
Interior Glass admits that it sought to deduct the payments it made in connection with the GTLP on its tax
returns for those years. Id. at ¶ 14. Third, Interior
Glass admits that its owner, Yates, was covered by a
life insurance policy for 2009, 2010, and 2011, that he
paid only part of the premiums for those policies, and
did not report any of the payments made by Interior
Glass as taxable income on his tax returns. Id. at ¶ 15.
Based on these admitted facts, the court finds that
the GTLP is “substantially similar” to a “listed transaction,” as that phrase is defined in § 1.6011-4(c)(4).
Much like the arrangement described in the background section of Notice 2007-83, Interior Glass – the
employer – made payments to the ABSE which were
then used to purchase a cash value life insurance policy for Yates. Interior Glass then sought to deduct its
contributions to the policy, while Yates did not declare
any of the payments made by Interior Glass on his tax
returns. The GTLP, therefore, was “expected to obtain

App. 37
the same or similar types of tax consequences” as a
“listed transaction,” and is “factually similar” to a
“listed transaction.” The fact that the GTLP is not controlled by a single employer is not a distinction that
makes a difference under these circumstances.
While it is true the GTLP is not a trust in the classic sense, or an “other fund described in § 419(e)(3),” it
is substantially similar to the “listed transaction” described in Notice 2007-83. Accordingly, there is no
genuine issue of material fact that Interior Glass was
required to disclose its participation in the GTLP for
the years 2009 through 2011, but did not do so. To that
extent, the Government’s second Motion for Partial
Summary Judgment will be granted, and Interior
Glass’ cross-motion will be denied.
IV. ORDER
Based on the foregoing:
1. The Government’s first Motion for Partial
Summary Judgment (Dkt. No. 30) is GRANTED.
2. Interior Glass’ Motion for Summary Judgment
(Dkt. No. 31) is GRANTED IN PART and DENIED IN
PART. The motion is GRANTED to the extent it seeks
recovery of the $10,000 penalty it paid for 2008. It is
DENIED on all other grounds.
3. The Government’s second Motion for Partial
Summary Judgment is GRANTED IN PART and DENIED IN PART. The motion is DENIED to as to the

App. 38
$10,000 penalty paid by Interior Glass in 2008. It is
GRANTED on all other grounds.
Judgment will [sic] entered in favor of Interior
Glass consistent with this order. Since that result constitutes a final resolution of this action, all other hearing dates and deadlines are VACATED. The Clerk shall
close this file.
IT IS SO ORDERED.
Dated: August 12, 2016
/s/ Edward J. Davila
EDWARD J. DAVILA
United States District Judge

App. 39
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
INTERIOR GLASS
SYSTEMS, INC.,
Plaintiff-Appellant,
v.
UNITED STATES
OF AMERICA,
Defendant-Appellee.

No. 17-15713
D.C. No.
5:13-cv-05563-EJD
Northern District of
California, San Jose
ORDER
(Filed Aug. 2, 2019)

Before: TASHIMA, RAWLINSON, and WATFORD,
Circuit Judges.
The panel unanimously votes to deny the petition
for panel rehearing. Judge Rawlinson and Judge Watford vote to deny the petition for rehearing en banc,
and Judge Tashima so recommends.
The full court has been advised of the petition for
rehearing en banc, and no judge requested a vote on
whether to rehear the matter en banc. Fed. R. App. P.
35.
The petition for panel rehearing and rehearing en
banc, filed July 10, 2019, is DENIED.

